Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   CDC’S CHEMPACK PROJECT:
  NERVE AGENT ANTIDOTE STORAGE




                    Daniel R. Levinson
                     Inspector General

                      December 2009
                     OEI-04-08-00040
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
   E X E C U T I V E                                  S U M M A R Y


                  OBJECTIVES
                  To determine the extent to which:

                  1. nerve agent antidotes in the CHEMPACK project were stored at
                     temperatures required by the Food and Drug Administration
                     (FDA),

                  2. the Centers for Disease Control and Prevention (CDC)
                     implemented procedures to ensure the quality of nerve agent
                     antidotes in the CHEMPACK project, and

                  3. nerve agent antidotes in the CHEMPACK project appropriately
                     received extended expiration dates under the Shelf Life Extension
                     Program (SLEP).


                  BACKGROUND
                  In 2004, CDC established the CHEMPACK project as part of an
                  approximately $3.5-billion Federal Strategic National Stockpile of
                  drugs and medical supplies to assist States in protecting communities
                  against the potentially deadly effects of chemical agents that attack
                  the human nervous system (i.e., nerve agents). While nerve agent
                  antidotes in the CHEMPACK project (hereinafter referred to as
                  CHEMPACK drugs) are part of the Strategic National Stockpile, they
                  are not located with other federally stockpiled drugs. Through the
                  voluntary CHEMPACK project, CDC has placed over 1,900 containers
                  stocked with CHEMPACK drugs in multiple locations in participating
                  States, thereby allowing States to quickly respond to a nerve agent
                  release. Each container is stocked with CHEMPACK drugs to treat
                  454 or 1,000 people, depending on the container’s configuration.

                  When States elect to participate in the CHEMPACK project, they sign
                  a memorandum of agreement with CDC that outlines Federal and
                  State roles and responsibilities. For example, States are responsible
                  for CHEMPACK drugs’ security, storage, and distribution in the
                  event of a nerve agent release. CDC retains ownership of
                  CHEMPACK drugs and is responsible for their quality assurance,
                  which includes temperature monitoring. To ensure that CHEMPACK
                  drugs are stored within the temperature range required by FDA, CDC
                  remotely monitors containers stocked with CHEMPACK drugs using
                  temperature-recording devices called Sensaphones and notifies States
                  when temperatures need to be corrected.


OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                               i
E X E C U T I V E                      S U           M M A R Y


                    As a holder of CHEMPACK drugs, CDC is subject to current good
                    manufacturing practice (CGMP) provisions in the Food, Drug, and
                    Cosmetic Act (the Act). FDA considers CGMP provisions of the Act to
                    be met if drugs are stored under temperatures required by their
                    FDA-approved label. CHEMPACK drugs must be stored according to
                    the definition of controlled room temperature. The definition requires
                    a storage range of 68 degrees Fahrenheit (68°F)–77°F with brief
                    excursions (i.e., temperature fluctuations) permitted provided the
                    calculated mean kinetic temperature (i.e., a fixed temperature that
                    simulates the effect of temperature variation over a period of time)
                    does not exceed 77°F. FDA requires entities that hold drugs with
                    controlled room temperature storage requirements to calculate mean
                    kinetic temperature but allows for flexibility in establishing the most
                    appropriate method of performing the calculation. FDA also requires
                    entities that perform activities regulated by CGMP to establish and
                    maintain a system to ensure the quality of their products. FDA
                    provides broad quality system guidance, but the entities have the
                    flexibility to develop and implement procedures that best attain their
                    quality objectives while still meeting FDA requirements.

                    Finally, CDC participates in FDA’s SLEP for selected Strategic
                    National Stockpile drugs, including drugs in the CHEMPACK project.
                    SLEP defers drug replacement costs by extending expiration dates.
                    SLEP potency testing is conducted on a sample of drugs from one lot,
                    or batch. Based on the results, the expiration dates of other drugs
                    from the same lot may be extended, provided that they were stored
                    according to FDA’s requirements.

                    We reviewed CDC and FDA documents and interviewed CDC and
                    FDA officials to assess the extent to which CDC’s procedures met
                    requirements for (1) CHEMPACK drug storage; (2) maintaining a
                    system to ensure the quality of all Strategic National Stockpile drugs,
                    including CHEMPACK drugs; and (3) SLEP. We focused our review
                    on the 1-year period from December 1, 2006, to November 30, 2007.


                    FINDINGS
                    Almost one-quarter of CHEMPACK containers did not have at
                    least three daily temperature readings in accordance with CDC
                    procedures. Of the 1,255 CHEMPACK containers that were in State
                    storage sites for the 1-year period we reviewed, 23 percent (288 of
                    1,255) did not have the minimum number of CDC-established
                    Sensaphone temperature readings for the full year. Further, CDC did
  OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 ii
E X E C U T I V E                      S U          M M A R Y


                   not investigate and document most of the missing temperature
                   readings.
                   CDC’s storage requirements for CHEMPACK drugs were not
                   consistent with FDA’s storage requirements. CDC’s procedures
                   permitted CHEMPACK drugs to be stored between 59°F and 86°F.
                   The storage temperature range required by FDA is 68–77°F with brief
                   excursions permitted up to 86°F and down to 59°F, provided that the
                   calculated mean kinetic temperature does not exceed 77°F. However,
                   CDC did not calculate the mean kinetic temperature of CHEMPACK
                   containers to demonstrate that their storage environment did not
                   exceed a calculated mean kinetic temperature of 77°F.
                   Nine percent of selected CHEMPACK containers were not stored
                   according to FDA’s storage requirements for at least 1 month.
                   Almost half of the 967 CHEMPACK containers that had at least three
                   daily Sensaphone temperature readings for the 1-year period we
                   reviewed experienced temperatures above 77°F for varying amounts
                   of time. Using average temperature as a substitute for mean kinetic
                   temperature, we determined that 9 percent (91 of 967) of selected
                   containers had an average monthly temperature 1°F or more above
                   the mean kinetic temperature permitted by FDA (i.e., at or above
                   78°F) for at least 1 month. In addition, 1 percent (12 of 967) of
                   selected containers had an average temperature at or above 78°F for
                   at least 6 months.
                   CDC did not consistently implement quality system procedures in
                   the CHEMPACK project. Although CDC had established a system to
                   ensure the quality of all Strategic National Stockpile drugs, including
                   CHEMPACK drugs, the system was not consistently implemented.
                   Further, the quality system lacked the procedures necessary to
                   ensure that CHEMPACK drugs were stored under conditions that
                   would result in their highest possible level of quality and were
                   maintained according to CGMP.
                   CDC’s procedures allowed CHEMPACK drugs to inappropriately
                   receive extended expiration dates under SLEP. Our findings
                   demonstrate variability in CHEMPACK drug storage conditions.
                   CDC procedures permit the comingling of drugs that were stored
                   under these variable conditions with no means to link the drugs to
                   records of their storage temperatures. This process allowed drugs
                   that were not stored according to FDA’s requirements to receive
                   extended expiration dates based on the potency testing results of
                   drugs in the same lot that were stored as required by FDA. Further,
 OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                iii
E X E C U T I V E                       S U          M M A R Y


                   a similar process is also used to extend the expiration dates of
                   non-CHEMPACK drugs in the $3.5-billion Strategic National
                   Stockpile managed by CDC.


                   RECOMMENDATIONS
                   Surviving nerve agent exposure requires rapid treatment with nerve
                   agent antidotes. CDC has distributed over 1,900 CHEMPACK
                   containers to participating States to allow quick response to a nerve
                   agent release. Each container is stocked with CHEMPACK drugs to
                   treat 454 or 1,000 people, depending on the container’s configuration.
                   FDA has established minimum storage requirements to ensure that
                   drugs are safe and effective. However, CDC procedures did not
                   ensure that CHEMPACK drugs stockpiled in States were stored
                   according to these requirements.

                   For example, CDC requirements allowed CHEMPACK drugs to be
                   consistently stored under conditions that did not meet FDA storage
                   temperature requirements and CGMP. In addition, CDC’s SLEP
                   procedures do not comply with FDA’s requirements for drugs to
                   receive extended expiration dates. These findings raise concerns
                   about whether similar vulnerabilities also apply to other stockpiled
                   CDC assets, i.e., non-CHEMPACK drugs in the $3.5-billion Strategic
                   National Stockpile, because all assets share the same quality system
                   and SLEP procedures.

                   To address our findings, we recommend that CDC:
                   Seek FDA guidance on whether CHEMPACK drugs that have
                   received extended expiration dates under SLEP are appropriate
                   for use.
                   Revise its CHEMPACK project SLEP procedures to comply with
                   FDA requirements.
                   Revise its CHEMPACK drug storage temperature requirements to
                   comply with FDA requirements.
                   Ensure that the CHEMPACK project’s quality system meets CGMP
                   requirements for drug storage.




 OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                iv
E X E C U T I V E                      S U          M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CDC concurred with all four of our recommendations. CDC noted
                   several actions it has taken or plans to take to address our findings and
                   recommendations. For example, CDC has retroactively calculated mean
                   kinetic temperature for the same period as our evaluation and identified
                   three CHEMPACK containers that FDA suggests may require
                   additional testing to assure potency. However, it is unclear from CDC’s
                   comments how it accounted for CHEMPACK containers that were
                   missing temperature readings and documentation of temperature-
                   recording device calibrations.

                   Finally, CDC stated that our report did not evaluate the overall
                   Strategic National Stockpile program and therefore should not imply
                   that problems exist with Strategic National Stockpile non-CHEMPACK
                   assets. Nevertheless, CDC has begun an assessment of how best to
                   initiate an independent review of its quality system and other
                   procedures relative to CHEMPACK containers, and the rest of the
                   Strategic National Stockpile assets, to ensure compliance with FDA
                   requirements.

                   We support CDC’s efforts to address these findings and encourage it to
                   continue making progress in these areas. We made technical changes to
                   the report based on CDC’s comments.




 OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                v
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                   Almost one-quarter of CHEMPACK containers did not have
                   at least three daily temperature readings in accordance
                   with CDC procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    CDC’s storage requirements for CHEMPACK drugs were not
                    consistent with FDA’s storage requirements . . . . . . . . . . . . . . . . 13

                   Nine percent of selected CHEMPACK containers were not
                   stored according to FDA’s storage requirements for at least
                   1 month . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                   CDC did not consistently implement quality system
                   procedures in the CHEMPACK project . . . . . . . . . . . . . . . . . . . . . 15

                   CDC’s procedures allowed CHEMPACK drugs to inappropriately
                   receive extended expiration dates under SLEP . . . . . . . . . . . . . . . 17



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    Agency Comments and Office of Inspector General Response . . . 21



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                    A: The United States Pharmacopeia Definition of
                       Controlled Room Temperature . . . . . . . . . . . . . . . . . . . . . . . . . 23

                   B: Methodology for Calculating Average Temperature. . . . . . . . . 24

                    C: Cumulative Time CHEMPACK Containers Were
                       Maintained Above 77°F. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
   I N T R O D U C T I O N

                  OBJECTIVES
                  To determine the extent to which:

                  1. nerve agent antidotes in the CHEMPACK project were stored at
                     temperatures required by the Food and Drug Administration
                     (FDA),

                  2. the Centers for Disease Control and Prevention (CDC)
                     implemented procedures to ensure the quality of nerve agent
                     antidotes in the CHEMPACK project, and

                  3. nerve agent antidotes in the CHEMPACK project appropriately
                     received extended expiration dates under the Shelf Life Extension
                     Program (SLEP).


                  BACKGROUND
                  The CDC Division of Strategic National Stockpile (DSNS) maintains
                  an approximately $3.5-billion stockpile of federally owned drugs and
                  medical supplies to assist State and local health departments in the
                  event of a large-scale public health emergency. 1, 2 This stockpile
                  includes antidotes to treat people exposed to nerve agents.

                  Nerve agents have been used to commit acts of terrorism. For
                  example, in 1995, the Aum Shinrikyo cult released the nerve agent
                  sarin in five Tokyo subways, killing 12 people and injuring more than
                  5,000 others. Depending on the dose, nerve agents can cause
                  immediate nervous system failure and death. Surviving nerve agent
                  exposure requires rapid treatment with nerve agent antidotes.

                  In 2004, CDC established the CHEMPACK project as part of the
                  Strategic National Stockpile to assist the 62 Bioterrorism Cooperative
                  Agreement Project Areas—the 50 States, the District of Columbia, the
                  cities of Chicago and New York, Los Angeles County, Puerto Rico, the
                  U.S. Virgin Islands, and the 6 Pacific Basin jurisdictions (hereinafter
                  referred to as States)—to protect communities against the potentially




                    1 The initial authorization to create and maintain special pharmaceutical stockpiles as a
                  national resource is described in the Fiscal Year 1999 Omnibus Appropriations Act.
                    2 CDC, Strategic National Stockpile (SNS). Available online at
                  http://emergency.cdc.gov/coca/ppt/DSNS_Piester_July12008_CE.ppt#303,1,Slide 1.
                  Accessed on March 19, 2009.



OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                               1
I N T R O D        U C T            I O N


                    deadly effects of nerve agents. 3 Cumulative funding for the
                    CHEMPACK project is estimated to exceed $100 million during fiscal
                    years 2009–2013. 4
                    While nerve agent antidotes in the CHEMPACK project (hereinafter
                    referred to as CHEMPACK drugs) are part of the Strategic National
                    Stockpile, they are not located with other federally stockpiled drugs
                    and medical supplies. Through the voluntary CHEMPACK project,
                    CDC places CHEMPACK drugs in multiple locations in participating
                    States, thereby allowing States to quickly respond to a nerve agent
                    release. 5 As of January 2009, more than 92 percent of the United
                    States population lived within a 1-hour distance of CHEMPACK
                    drugs, according to CDC. 6
                    When States elect to participate in the CHEMPACK project, they sign
                    a memorandum of agreement with CDC that outlines Federal and
                    State roles and responsibilities. For example, States are responsible
                    for CHEMPACK drugs’ security, storage, and distribution in the
                    event of a nerve agent release. CDC retains ownership of
                    CHEMPACK drugs and is responsible for their quality assurance,
                    which includes temperature monitoring.
                    CHEMPACK Drug Storage Containers
                    CDC assembles containers stocked with CHEMPACK drugs
                    (i.e., atropine, pralidoxime, and diazepam) and distributes the
                    containers to CDC-approved State storage sites. Each container is
                    stocked with CHEMPACK drugs to treat 454 or 1,000 people,
                    depending on the container’s configuration. As of January 2009, CDC
                    had distributed over 1,900 CHEMPACK containers to States. 7




                       3CHEMPACK Program Description (June 14, 2004). Available online at
                    http://www.bt.cdc.gov/planning/continuationguidance/pdf/chempack-attachj.pdf. Accessed
                    on October 1, 2007.
                       4 Implementation Plan for Chemical, Biological, Radiological and Nuclear Threats,
                    p. 13. Health and Human Services Public Health Emergency Medical Countermeasures
                    Enterprise, 2007.
                       5 As of January 2009, 54 of the 62 States were participating in the CHEMPACK project.
                       6 CDC, Public Health Preparedness: Strengthening CDC’s Emergency Response.
                    Available online at http://emergency.cdc.gov/publications/jan09phprep/. Accessed on
                    February 15, 2009.
                      7 Written CDC responses to OIG questions about the CHEMPACK project,
                    August 20, 2009.



 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 2
I N T R O D        U C T           I O N


                   These stocked containers cost at least $83 million—approximately
                   $43,000 per container. 8 CHEMPACK containers are monitored by
                   temperature-recording devices called Sensaphones. CDC programs
                   each Sensaphone to take one temperature reading at least every
                   8 hours, for a minimum of three daily temperature readings. 9 A
                   Sensaphone uses a telephone line to send the temperature readings to
                   a CDC computer that retains the readings. CDC personnel monitor
                   the temperature readings and notify States when action is required to
                   correct CHEMPACK drug storage temperatures.
                   CHEMPACK Drug Storage Requirements
                   FDA has established minimum requirements, known as current good
                   manufacturing practices (CGMP), for drug manufacturers, processors,
                   packers, and holders to ensure that drugs are safe and effective. 10 As
                   a holder of CHEMPACK drugs, CDC is subject to statutory CGMP
                   provisions in section 501(a)(2)(B) of the Food, Drug, and Cosmetic Act
                   (the Act). 11, 12 FDA considers CGMP provisions of the Act to be met if
                   drugs are stored according to FDA-approved requirements as
                   specified on the drug labels. 13
                   CHEMPACK drug labeling requires that the drugs be stored in
                   accordance with the United States Pharmacopeia definition of
                   controlled room temperature. 14 This definition establishes a storage

                     8 CDC documentation of CHEMPACK container costs, dated December 20, 2007. There

                   are two types of CHEMPACK containers, each with a different configuration and cost. To
                   be conservative, we used the cost of the less-expensive container when calculating the total
                   cost of the 1,937 containers.
                      9 CDC has established Sensaphone alarm temperature settings. When temperatures fall
                   outside of range, a Sensaphone may take a temperature reading more frequently than every
                   8 hours until the container’s temperature returns within range.
                      10 21 CFR § 211.
                      11 Written FDA response to Office of Inspector General (OIG) questions on CHEMPACK
                   drug storage requirements, March 13, 2008.
                      12 The Act requires that drugs be maintained to conform with CGMP, but does not
                   specifically address what constitutes CGMP. For guidance on good practices for holders of
                   drugs, FDA refers to 21 CFR §§ 205 and 211. Specifically, FDA refers to holding provisions
                   in the CGMP regulations and “Guidelines for State Licensing of Wholesale Prescription
                   Drug Distributors” in 21 CFR § 205.50. The sections of the CGMP regulations in
                   21 CFR § 211 that are the most applicable as guidance for the holding of drug products
                   include subparts B (Organization and Personnel), C (Buildings and Facilities), and
                   H (Holding and Distribution).
                     13 FDA Memorandum, Clarification Regarding SNS Medical Product Temperature
                   Excursions. May 18, 2005.
                      14 The United States Pharmacopeia is an official public standards-setting authority for
                   all prescription and over-the-counter medicines and other health care products
                   manufactured or sold in the United States.



 OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                  3
I N T R O D        U C T            I O N


                   temperature range of 68 degrees Fahrenheit (68°F) to 77°F. However,
                   the controlled room temperature definition also recognizes that
                   temperature excursions (i.e., fluctuations) can occur in typical drug
                   storage warehouses. As a result, drugs with controlled room
                   temperature storage requirements are permitted to experience brief
                   excursions as low as 59°F and as high as 86°F, provided that the
                   calculated mean kinetic temperature (i.e., a fixed temperature that
                   simulates the effect of temperature variation over a period of time)
                   does not exceed 77°F. See Appendix A for the full definition of
                   controlled room temperature.

                   FDA officials provided further guidance on the definition of controlled
                   room temperature, noting that it intends for drugs to be stored
                   primarily within the 68–77°F range. Further, FDA officials noted
                   that drugs labeled for controlled room temperature storage should not
                   be stored constantly at the upper excursion range because they may
                   be exposed to a mean kinetic temperature exceeding 77°F over time.

                   FDA does not dictate how frequently drug storage temperatures must
                   be recorded or the length of time over which mean kinetic
                   temperature must be calculated. However, FDA recommends that
                   entities follow the instructions in United States Pharmacopeia
                   General Information Chapter 1150 for collecting temperature
                   monitoring data and for calculating mean kinetic temperature.
                   General Information Chapter 1150 states that temperatures for
                   calculating mean kinetic temperature can be conveniently collected
                   using electronic devices that measure temperatures at frequent
                   intervals (e.g., every 15 minutes).
                   Finally, FDA does not require CHEMPACK drugs to be stored under
                   controlled humidity, although CDC requires States to maintain the
                   humidity level in CHEMPACK drug storage sites below 60 percent. 15
                   According to CDC personnel, this requirement was established based
                   on input from the FDA, with legal oversight by the Office of the
                   General Counsel at both the Departments of Homeland Security and
                   Health and Human Services. 16




                      15 Memorandum of agreement between CDC and each participating State.
                      16 Written CDC responses to OIG questions on the roles and responsibilities of the DSNS
                   Quality Control Unit, March 25, 2008.



 OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                4
I N T R O D        U C T            I O N


                    The Quality System for the CHEMPACK Project
                    FDA requires entities that perform activities regulated by CGMP to
                    establish and maintain a system to ensure the quality of their
                    products. FDA provides broad quality system guidance, but entities
                    have the flexibility to develop and implement procedures that attain
                    their quality objectives while still meeting FDA requirements.

                    CDC’s Strategic National Stockpile quality system applies to the
                    CHEMPACK project, as well as other stockpiled CDC assets, i.e.,
                    non-CHEMPACK drugs in the $3.5-billion Strategic National
                    Stockpile. For the CHEMPACK project, in particular, the quality
                    system includes procedures to ensure that (1) Sensaphones take
                    accurate temperature readings, (2) storage temperatures are
                    monitored to maintain CHEMPACK drugs within a CDC-established
                    temperature range, and (3) the temperature readings are accurately
                    retained. 17 In addition, the quality system includes procedures to
                    correct and document out-of-range drug storage temperatures.
                    Finally, the DSNS Quality Control Unit provides oversight of all
                    Strategic National Stockpile drugs, including those in the
                    CHEMPACK project, to ensure that the quality system is
                    implemented as intended.

                    Ensuring accurate temperature readings. CDC procedures for the
                    CHEMPACK project require CDC personnel to calibrate Sensaphones
                    annually to ensure that the temperature recorded by the device
                    reflects the actual storage environment. 18 Further, according to CDC
                    procedures for the CHEMPACK project, CDC personnel sign and date
                    all calibration reports before placing them on file.

                    Monitoring and retaining temperature readings. To ensure that
                    CHEMPACK drugs are stored within the CDC-established
                    temperature range, CDC personnel monitor Sensaphone temperature
                    readings for all CHEMPACK drug storage sites. CDC also retains
                    electronic records of Sensaphone temperature readings to document
                    CHEMPACK drug storage conditions.

                    Correcting and documenting out-of-range temperatures. CDC
                    procedures require CDC personnel to notify States when action is

                       17 CDC has established a temperature range for CHEMPACK storage that is different
                    from the temperature range required by FDA. This will be discussed in detail later in this
                    report.
                      18 Calibration is a process during which a measuring instrument is adjusted to an
                    acceptable level of accuracy.



 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 5
I N T R O D        U C T            I O N


                    required to return CHEMPACK drug storage temperatures to the
                    CDC-established range.

                    When CHEMPACK drug storage temperatures fall outside of the
                    CDC-established range for less than 24 hours, CDC procedures for the
                    CHEMPACK project require CDC personnel to create an incident
                    ticket. In general, an incident ticket documents the steps that States
                    have taken to correct CHEMPACK drug storage temperatures, and
                    what may have led to the out-of-range temperatures. 19
                    If CHEMPACK drug storage temperatures fall outside of the
                    CDC-established range for longer than 24 hours, CDC personnel must
                    create a corrective and preventive action report. A corrective and
                    preventive action report documents the steps that State and/or CDC
                    personnel have taken to correct temperatures outside of the
                    established range. It also documents what may have led to the
                    out-of-range temperatures and potential impact to the affected
                    CHEMPACK drugs.

                    Overseeing quality procedures. The DSNS Quality Control Unit is
                    responsible for overseeing the quality system for storing and
                    monitoring all Strategic National Stockpile drugs, including
                    CHEMPACK drugs. 20 The Quality Control Unit reports directly to
                    the DSNS Office of the Director and its responsibilities include:

                     ensuring that CDC and States comply with applicable CGMP
                      regulations;

                     conducting regularly scheduled evaluations of all CHEMPACK
                      drug storage sites, applicable policies, and standard operating
                      procedures;

                     verifying appropriate investigation and resolution of situations and
                      actions that do not adhere to CHEMPACK policies and standard
                      operating procedures, e.g., out-of-range CHEMPACK drug storage
                      temperatures; and

                     ensuring that all CHEMPACK CGMP documents, e.g., Sensaphone
                      calibration reports, records of Sensaphone temperature readings,

                       19 CDC personnel also develop incident tickets to document occurrences other than

                    out-of-range storage temperatures, such as power outages and lack of Sensaphone
                    connectivity.
                      20 CDC, Establishment of an Independent Division of Strategic National Stockpile
                    (DSNS) Quality Control Unit for the Storage and Movement of Finished Pharmaceuticals.
                    December 15, 2005.



 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 6
I N T R O D        U C T            I O N


                         incident tickets, and corrective and preventive action reports, are
                         appropriately maintained. 21
                    Shelf Life Extension Program
                    CDC participates in SLEP for selected Strategic National Stockpile
                    drugs, including CHEMPACK drugs. SLEP is an FDA program that
                    defers drug replacement costs by extending drug expiration dates. 22
                    Under SLEP, the shelf life of a drug may be doubled if the drug
                    passes FDA potency testing. CDC has reported that for every dollar
                    spent on SLEP costs (e.g., shipping drugs, potency testing) in 2007, it
                    saved $13 by deferring the purchase of new drugs. 23, 24
                    CDC provides FDA with a list of all lot numbers of CHEMPACK
                    drugs that are approaching expiration. 25 From this list, FDA
                    determines which drugs will be potency tested and requests that CDC
                    submit samples to be tested from each selected lot of the drugs. CDC
                    recalls, from State storage sites, the remaining drugs from each
                    selected lot to central CDC storage, where they are held pending FDA
                    potency test results.

                    CHEMPACK drugs from one lot may have been stored in multiple
                    locations. According to FDA officials, SLEP potency testing results
                    may be used to extend the expiration dates of drugs with the same lot
                    number that were stored under appropriate conditions, i.e., according
                    to FDA-approved labeling requirements. When a drug fails potency
                    testing, all drugs with that lot number must be destroyed. Further, if
                    drugs with any lot number were stored under conditions outside of
                    FDA-approved labeling requirements, they should be potency tested
                    separately or destroyed upon expiration.

                    As of January 2009, samples of the CHEMPACK drugs atropine,
                    pralidoxime, and diazepam have undergone FDA potency testing and
                    received extended expiration dates.




                       21 Ibid.
                       22 FDA/DoD   [Department of Defense] Shelf Life Extension Program. Available online at
                    https://slep.dmsbfda.army.mil/slep/slep_infor_paper_JAN_2006.doc. Accessed on July 29,
                    2008.
                       23 CDC SLEP cost avoidance includes both CHEMPACK and non-CHEMPACK drugs.
                       24 CDC, Online Performance Appendix, p. 120. Available online at
                    http://www.cdc.gov/FMO/PDFs/FY09_CDC_Online_Performance_Appendix.pdf. Accessed
                    on April 13, 2009.
                       25 A lot number identifies a particular batch, or lot, of drug product from a manufacturer.




 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 7
I N T R O D        U C T            I O N


                    Related Work
                    In 2006, OIG issued a report on early CHEMPACK project
                    implementation and determined that CDC had opportunities to
                    strengthen CHEMPACK deployment. OIG recommended that CDC
                    assist States in deployment testing, develop CHEMPACK
                    performance goals and training materials, and provide medical
                    expertise on CHEMPACK drugs. In its comments to our report, CDC
                    stated that it had addressed, or begun to address, OIG’s
                    recommendations.


                    METHODOLOGY
                    Scope
                    We determined the extent to which CHEMPACK drugs were stored at
                    the temperatures required by FDA during the 1-year period from
                    December 1, 2006, to November 30, 2007. 26 We also determined the
                    extent to which CDC ensured that CHEMPACK drugs, as well as
                    non-CHEMPACK drugs in the $3.5-billion Strategic National
                    Stockpile, were maintained under a system to ensure their quality
                    and appropriately received extended expiration dates under SLEP.

                    We did not analyze the viability of CHEMPACK drugs that were
                    stored outside FDA-required temperatures. We also did not directly
                    assess storage conditions for non-CHEMPACK drugs.
                    Data Collection
                    We requested that CDC provide a listing of all CHEMPACK
                    containers that were in State storage sites for the entire year we
                    reviewed. 27 Of the over 1,900 containers that CDC had distributed as
                    of January 2009, 1,262 met this criterion.

                    In addition, we obtained written CDC policies, procedures, and
                    records related to storing CHEMPACK drugs as well as the Strategic
                    National Stockpile quality system and SLEP. We also obtained
                    written FDA requirements for CDC participation in SLEP.




                       26 We used Sensaphone data to determine CHEMPACK drug storage temperatures. The

                    most recent 12-month period of Sensaphone data available at the time of our review was
                    from December 1, 2006, to November 30, 2007.
                      27 The containers were stored in 51 of the 54 States participating in the CHEMPACK
                    project. Three States had not yet received CHEMPACK containers when we began our
                    review.



 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 8
I N T R O D        U C T           I O N


                    Further, we interviewed CDC officials about their policies and
                    procedures for CHEMPACK drug storage and Strategic National
                    Stockpile participation in SLEP. Finally, we interviewed FDA
                    officials on Federal storage requirements for CHEMPACK drugs and
                    Strategic National Stockpile SLEP participation.
                    Data Analysis
                    We reviewed Sensaphone temperature records for 1,255 CHEMPACK
                    containers that were in State storage sites for the entire 1-year period
                    we reviewed. 28 We reviewed the Sensaphone records to determine the
                    extent to which the 1,255 containers had at least three temperature
                    readings for each day of the 1-year period, in accordance with CDC
                    procedures. 29 For the containers that did not have at least three daily
                    temperature readings for the year, we determined the total number of
                    temperature readings that were missing. We also reviewed CDC
                    incident reports to determine the extent to which CDC investigated
                    and documented the missing temperature readings.
                    We selected the containers that had at least three daily temperature
                    readings for the entire 1-year period for further analysis. First, using
                    Sensaphone temperature readings, we determined the cumulative
                    time the containers were maintained above the 68–77°F storage range
                    for CHEMPACK drugs. 30, 31 We focused our analysis on
                    temperatures above the storage range because they present the
                    greatest risk of increasing a container’s mean kinetic temperature
                    above the 77°F limit specified by FDA.

                    Second, we calculated average temperature for the selected containers
                    as a substitute for mean kinetic temperature for each month of the




                       28 We excluded seven containers from our analysis because CDC did not provide their
                    corresponding Sensaphone records.
                      29 Sensaphones take temperature readings more frequently than every 8 hours when a
                    container’s storage temperature falls outside of the CDC-established storage range.
                      30 We define cumulative time as the aggregate time that CHEMPACK containers were
                    maintained above 77°F over the course of the entire 1-year period we reviewed.
                      31 To be conservative, we did not include periods of time when a container’s temperature
                    was above 110°F because these temperature readings were questionable and/or we received
                    CDC documentation explaining that they were not valid.



 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 9
I N T R O D        U C T            I O N


                    1-year period we reviewed. 32, 33 We then counted the number of
                    months that each container had an average temperature of 78°F or
                    higher, i.e., 1 degree or more above the mean kinetic temperature
                    limit of 77°F permitted by FDA. See Appendix B for a description of
                    the methodology we used to calculate average temperature.

                    Next, we reviewed CDC documentation to determine the extent to
                    which CDC personnel implemented Strategic National Stockpile
                    quality system procedures for the CHEMPACK project by developing
                    required incident tickets and corrective and preventive action reports.
                    First, we selected CHEMPACK containers that had at least three
                    daily temperature readings for the entire 1-year period we reviewed.
                    Next, we used Sensaphone records to determine the number of
                    occurrences that each selected container’s temperature was outside of
                    the CDC-established range. 34 Finally, we reviewed CDC
                    documentation to determine the extent to which CDC personnel
                    developed incident tickets and corrective and preventive action
                    reports for out-of-range temperatures lasting less than 24 hours and
                    over 24 hours, respectively.

                    We reviewed CDC documentation to determine the extent to which
                    CDC personnel filed a signed and dated annual Sensaphone
                    calibration report, as required by CDC procedures for the
                    CHEMPACK project, for all 1,255 containers that were in State
                    storage for the entire year we reviewed. 35 We also reviewed the
                    calibration reports to determine the extent to which CDC met CGMP
                    standards when documenting the calibration procedures and results.

                    Finally, we determined the extent to which CDC procedures ensured
                    that CHEMPACK drugs appropriately received extended expiration
                    dates. We performed this analysis by comparing CDC SLEP




                       32 We did not calculate mean kinetic temperature because we did not have the energy of
                    activation, a variable required for calculation, for each CHEMPACK drug.
                       33 According to FDA, the calculated mean kinetic temperature is higher than the average
                    temperature. FDA, Guidance for Industry: Q1A(R2) Stability Testing of New Drug
                    Substances and Products, November 2003, p. 18. Available online at
                    http://www.fda.gov/downloads/RegulatoryInformation/Guidances/ucm128204.pdf. Accessed
                    on November 13, 2009.
                      34 We define occurrences as each time a container’s temperature left and then returned
                    within range.
                      35 We performed this analysis on calibration records CDC personnel developed during
                    the period from January to December 2007.



 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 10
I N T R O D        U C T            I O N

                    procedures to FDA SLEP requirements, and by reviewing transcripts
                    of interviews we conducted with CDC and FDA officials about SLEP.
                    Limitations
                    We reviewed Sensaphone temperature readings for 1,255 CHEMPACK
                    containers that were in State storage sites during the year from
                    December 1, 2006, to November 30, 2007. As of January 2009, there
                    were over 1,900 containers stored in States.

                    We reviewed the storage temperatures of CHEMPACK drugs during a
                    1-year period. However, many of the drugs had been stored for periods
                    longer than 1 year. The cumulative amount of time these drugs may
                    have been stored outside their required storage range is unknown.
                    We calculated average temperature as a substitute for mean kinetic
                    temperature because we did not have the energy of activation, a
                    variable necessary to calculate mean kinetic temperature, for each
                    CHEMPACK drug.

                    Further, FDA does not dictate how frequently drug storage
                    temperatures must be recorded or the length of time over which mean
                    kinetic temperature must be calculated. However, FDA does note
                    that more frequent measurements will provide a more precise mean
                    kinetic temperature. We calculated average temperature, as a
                    substitute for mean kinetic temperature, for each month of the 1-year
                    period we reviewed using all recorded temperatures for each
                    container. Other methods may also be appropriate.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-04-08-00040    C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                 11
      F I N D I N G S



Almost one-quarter of CHEMPACK containers                       Twenty-three percent (288 of
  did not have at least three daily temperature                 1,255) of the CHEMPACK
readings in accordance with CDC procedures                      containers in State storage sites
                                                                for the entire year we reviewed
                           did not have the three required daily temperature readings for the
                           1-year period we reviewed. 36 The other 967 of 1,255 containers had at
                           least three daily temperature readings for the full year.

                           In most cases, the CHEMPACK containers that did not have at least
                           three daily temperature readings were missing 1 percent or less of the
                           required temperature readings (i.e., 11 readings or less). These
                           missing readings represent a cumulative maximum time of
                           approximately 3.5 days of the 1-year period we reviewed.

                           In some cases, these CHEMPACK containers were missing a
                           significant number of temperature readings. For example, 2 percent
                           of containers (23 of 1,255) were missing more than one-quarter of the
                           required temperature readings (i.e., over 247 readings). These
                           missing readings represent a cumulative minimum time of over 90
                           days of the 1-year period we reviewed.

                           Table 1 (on the next page) provides the number and percentage of
                           CHEMPACK containers we determined were missing temperature
                           readings during the 1-year period.

                       Table 1: CHEMPACK Containers With Missing Temperature Readings
                       Percentage of Missing Daily Temperature                               Number of Containers                    Percentage of
                       Readings in a 1-Year Period*                                                                           Containers (n=1,255)**
                       0.1–1%                                                                                           248                    20%
                       Over 1–5%                                                                                          6                     0%
                       Over 5–10%                                                                                         4                     0%
                       Over 10–25%                                                                                        7                     1%
                       Over 25–50%                                                                                       13                     1%
                       Over 50–75%                                                                                        5                     0%
                       Over 75%                                                                                           5                     0%

                         Total                                                                                          288                 23%***
                     * Ranges calculated out of 1,095 expected readings in a 1-year period.
                     ** Percentages are rounded to the closest whole number.
                     *** Percentages do not add to total because of rounding.
                     Source: OIG analysis of Sensaphone temperature readings of CHEMPACK containers.



                              36 We reviewed the 1-year period from December 1, 2006, to November 30, 2007.




   OEI-04-08-00040         C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                                                  12
F    I N D I N G       S


                      CDC did not investigate and document most of the missing
                      temperature readings
                      CDC documented missing temperature readings for three
                      CHEMPACK storage sites for the 1-year period we reviewed. These
                      sites corresponded to only 4 of the 288 containers that lacked
                      temperature readings.



    CDC’s storage requirements for CHEMPACK                FDA requires CHEMPACK
          drugs were not consistent with FDA’s             drugs to be stored primarily
                                                           within the 68–77°F range, with
                         storage requirements
                                                           excursions permitted down to
                      59°F and up to 86°F provided that the calculated mean kinetic
                      temperature does not exceed 77°F. 37
                      CDC requires CHEMPACK drugs to be stored in a 59–86°F range.
                      This requirement allows States to indefinitely store CHEMPACK
                      drugs in temperature ranges (i.e., 59–67°F and 78–86°F) that,
                      according to FDA requirements, are permitted for brief excursion
                      periods only. FDA officials further noted that CHEMPACK drugs
                      should not be constantly stored under temperatures in the upper
                      excursion range.
                      CDC did not calculate the mean kinetic temperature of CHEMPACK
                      containers
                      CHEMPACK drugs should not be stored under conditions that result
                      in a calculated mean kinetic temperature that exceeds 77°F.
                      However, CDC did not calculate the mean kinetic temperature of
                      CHEMPACK containers during the time of our review. Without this
                      calculation, CDC could not demonstrate that CHEMPACK drugs that
                      experienced temperature excursions above 77°F were held according
                      to FDA requirements.


Nine percent of selected CHEMPACK containers               We analyzed the temperature
    were not stored according to FDA’s storage             readings of the 967
               requirements for at least 1 month           CHEMPACK containers that
                                                           had at least three daily
                      Sensaphone temperature readings for the 1-year period we reviewed

                         37 Written FDA response to OIG questions on CHEMPACK drug storage requirements,
                      March 13, 2008.




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   13
F   I N D I N G        S

                      and determined that over one-third of these containers experienced
                      temperatures above 77°F for varying amounts of time. 38 Specifically,
                      36 percent (351 of 967) of these containers experienced temperatures
                      above 77°F for a cumulative period ranging from 8 hours to over 6
                      months. See Appendix C for further details on this analysis.

                      Using average temperature as a substitute for mean kinetic
                      temperature, we determined that 9 percent (91 of 967) of the selected
                      containers had an average monthly temperature 1 degree or more
                      above the maximum mean kinetic temperature permitted by FDA
                      (i.e., at or above 78°F) for at least 1 month. 39 In addition,
                      1 percent (12 of 967) of the selected containers had an average
                      temperature at or above 78°F for at least 6 months. Three of these
                      containers had an average monthly temperature at or above 78°F for
                      the entire 1-year period we reviewed.

                      Table 2 provides the number of months that the selected CHEMPACK
                      containers had an average temperature at or above 78°F and the
                      corresponding number and percentage of containers.


                             Table 2: CHEMPACK Containers With a Monthly Average
                             Temperature At or Above 78°F
                            Number of Months at or                                                                      Percentage of Selected
                            Above 78°F                                              Number of Containers                   Containers (n=967)*
                            1                                                                                      35                     4%
                            2                                                                                      19                     2%
                            3                                                                                      14                     1%
                            4                                                                                       8                     1%
                            5                                                                                       3                     0%
                            6                                                                                       2                     0%
                            7                                                                                       3                     0%
                            8                                                                                       4                     0%
                            11                                                                                     1                      0%
                            12                                                                                     2                      0%

                                Total                                                                              91                    9%**
                         * Percentages rounded to the closest whole number.
                         ** Percentages do not add to total because of rounding.
                         Source: OIG analysis of Sensaphone temperature readings of CHEMPACK containers.



                         38 Approximately 44 percent (425 of 967) of these containers had at least one

                      temperature reading above 77°F
                         39 Monthly average temperatures did not exceed 84°F.




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                                                 14
 F   I N D I N G        S



  CDC did not consistently implement quality             Although CDC had established a
system procedures in the CHEMPACK project                system to ensure the quality of all
                                                         Strategic National Stockpile
                       drugs, including CHEMPACK drugs, the system was not consistently
                       implemented. Further, the quality system lacked procedures
                       necessary to ensure that CHEMPACK drugs were stored under
                       conditions that would maintain their highest level of quality and were
                       maintained according to CGMP.
                       CDC did not validate the computer that stores Sensaphone temperature
                       readings
                       CDC did not validate the computer that stores Sensaphone
                       temperature readings to ensure that the stored temperatures were
                       identical to the temperatures recorded by the Sensaphone. In
                       addition, CDC did not validate the computer system to ensure that
                       controls were in place to prevent the loss of temperature readings, or
                       unauthorized access or changes to those readings.
                       CDC did not adequately document Sensaphone calibrations
                       According to CDC procedures, Sensaphones must be calibrated
                       annually to ensure that the temperatures recorded by the devices
                       reflect the actual storage environment. A calibration report must be
                       signed and dated to document that the procedure was performed.
                       However, 39 percent of the CHEMPACK containers (486 of 1,255) did
                       not have a Sensaphone calibration report that was signed and dated
                       by CDC personnel during the 1-year period of our review. Therefore,
                       we could not determine whether the calibration had been performed
                       annually according to CDC procedures.
                       The 769 calibration reports that were signed and dated contained the
                       initials of the signatory but did not indicate whether that person had
                       performed the calibration or was a reviewing official. In addition,
                       these calibration reports were not signed by a second person to
                       demonstrate that they had been independently reviewed. Further,
                       none of the calibration reports contained necessary CGMP
                       information about the calibration process. For example, they all
                       lacked clearly marked precalibration and postcalibration Sensaphone
                       readings, as well as details about adjustments made to bring the
                       Sensaphone to an acceptable level of accuracy. In addition, none of
                       the calibration reports documented that the Sensaphone alarm
                       settings had been checked and were functioning as intended.




     OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                    15
F   I N D I N G         S


                            CDC did not consistently develop incident tickets and corrective and
                            preventive action reports for CHEMPACK drug storage temperatures
                            outside of the CDC-established range
                            CDC must document deviations from written CDC procedures for the
                            CHEMPACK project to be in compliance with these procedures and
                            CGMP. However, CDC personnel did not consistently develop
                            incident tickets or corrective and preventive action reports to
                            document CHEMPACK drug storage temperatures outside of the
                            CDC-established temperature range (i.e., 59–86°F), in accordance
                            with CDC procedures.

                            For all 967 containers that had at least three daily temperature
                            readings for the 1-year period of our review, there were
                            6,438 occurrences when the containers’ temperatures fell outside of
                            the CDC-established temperature range and returned to that range.
                            According to CDC procedures, CDC personnel should have developed
                            an incident ticket or corrective and preventive action report for each
                            of these 6,438 occurrences. However, CDC completed documentation
                            for only 65 of these occurrences.

                            We performed further analysis on the occurrences when the
                            containers’ temperatures were continuously outside of the CDC-
                            established range for at least 1 hour. Based on this analysis, there
                            were 201 occurrences that should have been reported on an incident
                            ticket because a container’s temperature reading was outside of the
                            CDC-established temperature range for at least one hour but less
                            than 24 hours. However, CDC completed an incident ticket for only
                            32 percent (64 of 201) of these occurrences.

                            Similarly, CDC personnel did not develop a corrective and preventive
                            action report each time a container experienced temperatures outside
                            of the CDC-established temperature range for longer than 24 hours.
                            For all 967 containers that had at least three daily temperature
                            readings for the 1-year period of our review, there were
                            39 occurrences that should have led to a corrective and preventive
                            action report. However, CDC completed a corrective and preventive
                            action report for only 1 of these 39 occurrences.
                            CDC did not monitor humidity at CHEMPACK drug storage sites
                            As outlined in the CHEMPACK memorandum of agreement, States
                            must maintain the humidity level of CHEMPACK drug storage sites
                            below 60 percent. However, CDC did not monitor humidity in
                            CHEMPACK storage sites and therefore did not notify States when


      OEI-04-08-00040       C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                         16
F   I N D I N G        S


                      action was required to bring drug storage conditions back into the
                      required humidity range.
                      CDC did not ensure that the CHEMPACK project was reviewed as
                      required by a quality control unit
                      DSNS policy requires its Quality Control Unit to regularly inspect all
                      Strategic National Stockpile storage sites, including those in the
                      CHEMPACK project. However, the DSNS Quality Control Unit had
                      not inspected any CHEMPACK drug storage sites since the
                      CHEMPACK project’s inception in 2004. In addition, DSNS’s Quality
                      Control Unit staff had not reviewed Sensaphone calibration reports,
                      Sensaphone temperature records, or incident tickets and corrective
                      and preventive action reports in accordance with CDC procedures.
                      These reviews are necessary to ensure appropriate storage of
                      CHEMPACK drugs as well as investigation and resolution of drug
                      storage temperatures that did not adhere to CDC procedures and
                      CGMP.



      CDC’s procedures allowed CHEMPACK drugs                 CDC procedures do not
               to inappropriately receive extended            ensure that CHEMPACK
                      expiration dates under SLEP             drugs stored outside of
                                                              FDA’s temperature
                      requirements are destroyed or potency tested separately from drugs
                      that meet those requirements, as required by FDA SLEP policy.
                      When CHEMPACK drugs approach expiration, they are returned
                      from State storage sites to a central CDC location and sorted by their
                      manufacturer lot numbers. However, according to CDC
                      documentation, “. . . product is not sorted or sortable by its history, so
                      the container that it came out of cannot be determined once it is
                      comingled with other [CHEMPACK drugs] of the same lot.”
                      Therefore, once CHEMPACK drugs are returned to central storage,
                      CDC personnel cannot determine which drugs were stored under
                      conditions required by FDA and which were not.

                      Our findings demonstrate that almost one-quarter of CHEMPACK
                      containers were missing temperature readings to document their
                      storage conditions. Further, there was variability in CHEMPACK
                      drug storage conditions for the containers that had the minimum
                      number of CDC-required temperature readings. For example,
                      36 percent (351 of 967) of containers were maintained above the 77°F
                      upper storage limit required by FDA for cumulative periods of

    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   17
F   I N D I N G        S


                      between 8 hours and more than 6 months. Further, 9 percent
                      (91 of 967) of the selected containers had an average monthly
                      temperature 1 degree or more above the mean kinetic temperature
                      permitted by FDA (i.e., at or above 78°F) for at least 1 month. 40
                      CDC procedures allowed CHEMPACK drugs in containers that were
                      not maintained within the FDA required temperature range to be
                      mixed with drugs from containers that were maintained as required.
                      These procedures allowed CDC to extend the expiration dates of
                      CHEMPACK drugs that were not stored according to FDA’s
                      requirements based on the potency testing results of drugs in the
                      same lot that were stored as required. A similar process is used to
                      extend the expiration dates of non-CHEMPACK drugs in the
                      $3.5-billion Strategic National Stockpile managed by CDC.




                           40 We calculated average temperature as a substitute for mean kinetic temperature.




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   18
   R E C O M M E N D A T I O N S




                  Surviving nerve agent exposure requires rapid treatment with nerve
                  agent antidotes. CDC has distributed over 1,900 CHEMPACK
                  containers to participating States to allow quick response to a nerve
                  agent release. Each container is stocked with CHEMPACK drugs to
                  treat 454 or 1,000 people, depending on the container’s configuration.
                  FDA has established minimum storage requirements to ensure that
                  drugs are safe and effective. However, CDC procedures did not
                  ensure that CHEMPACK drugs stockpiled in States were stored
                  according to these requirements.

                  For example, CDC’s CHEMPACK drug storage temperature
                  requirement allows the drugs to be consistently stored under
                  conditions that do not meet FDA’s storage temperature requirements
                  and CGMP. In addition, CDC did not consistently implement a
                  quality system to ensure that procedures necessary to store
                  CHEMPACK drugs according to FDA’s requirements were followed.
                  Further, CDC procedures allow CHEMPACK drugs to inappropriately
                  receive extended expiration dates under SLEP.

                  Although we did not assess non-CHEMPACK assets directly, we did
                  review CDC procedures that pertain to other assets managed by the
                  Strategic National Stockpile. These findings raise concerns about
                  whether similar vulnerabilities also apply to other stockpiled CDC
                  assets, i.e., non-CHEMPACK drugs in the $3.5-billion Strategic
                  National Stockpile, because all assets share the same quality system
                  and similar SLEP procedures.

                  To address our findings, we recommend that CDC:
                  Seek FDA guidance on whether CHEMPACK drugs that have received
                  extended expiration dates under SLEP are appropriate for use
                  CDC cannot demonstrate that all CHEMPACK drugs that have
                  received extended expiration dates were stored under the conditions
                  required by FDA. For this reason, CDC should provide the necessary
                  drug storage information to FDA officials so that they can determine
                  whether the drugs are appropriate for use, should be destroyed, or
                  should undergo additional potency testing.




OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                               19
R    E C O       M M E N D A T                        I O N              S


                      Revise its CHEMPACK project SLEP procedures to comply with FDA
                      requirements
                      CDC should coordinate with FDA to revise its SLEP procedures for
                      the CHEMPACK project so that they comply with program
                      requirements. CDC should also consider reviewing the SLEP
                      procedures for other CDC drugs under SLEP, i.e.,
                      non-CHEMPACK drugs included in the Strategic National Stockpile
                      managed by CDC. This will ensure that only drugs that are stored
                      according to FDA’s requirements receive extended expiration dates.
                      Revise its CHEMPACK drug storage temperature requirements to
                      comply with FDA requirements
                      CDC should change its storage temperature requirements for
                      CHEMPACK drugs to 68–77°F with excursions permitted up to 86°F
                      and down to 59°F provided that the calculated mean kinetic
                      temperature does not exceed 77°F. This change would also require
                      CDC to develop a method for calculating and regularly monitoring the
                      mean kinetic temperature of CHEMPACK drug containers. CDC
                      should seek FDA guidance to ensure that the method used to
                      calculate mean kinetic temperature is appropriate for the long-term
                      storage of CHEMPACK drugs.
                      Ensure that the CHEMPACK project’s quality system meets CGMP
                      requirements for drug storage
                      CDC should conduct a complete review of its Strategic National
                      Stockpile quality system and coordinate with FDA or other CGMP
                      experts to ensure that CHEMPACK drugs are stored under conditions
                      that will maintain their highest level of quality. According to FDA,
                      the CGMP provisions most applicable to the CHEMPACK project are
                      included in 21 CFR §§ 211 and 205.50. At a minimum, CDC should
                      adhere to its procedures of taking at least three daily temperature
                      readings for each CHEMPACK container, monitor Sensaphone
                      records for missing temperature readings and anomalies, and
                      investigate the causes when they occur. In addition, CDC could
                      consider seeking guidance from FDA as to whether taking a minimum
                      of three daily temperature readings is sufficient. CDC should also
                      implement quality system procedures that include maintaining
                      complete and accurate temperature records. This would include
                      validating the computer that stores Sensaphone readings and
                      conducting fully documented Sensaphone calibrations. Further,
                      DSNS’s Quality Control Unit should evaluate selected CHEMPACK
                      drug storage sites and review CHEMPACK-related documents such


    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   20
R   E C O        M M E N D A T                       I O N              S


                      as Sensaphone calibration records, incident tickets, and corrective
                      and preventive action reports. Finally, CDC should coordinate with
                      FDA to review the requirement for States to maintain the humidity
                      level of CHEMPACK drug storage sites below 60 percent. If this
                      review determines that such a requirement is necessary, CDC should
                      start monitoring humidity in CHEMPACK drug storage sites. If the
                      requirement is not necessary, CDC should remove it from the
                      CHEMPACK memorandum of agreement.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CDC concurred with all four of our recommendations and stated that
                      the report’s findings provide important information regarding the
                      adequacy of quality systems and procedures and CDC adherence to
                      them at the time of the evaluation. However, CDC noted that we did
                      not evaluate the quality of CHEMPACK drugs and that our findings do
                      not address the viability of these drugs. CDC also noted that it has
                      instituted a corrective action program to address our findings and
                      recommendations and described actions it has taken. That is, CDC
                      stated that as of September 2008, it had instituted the calculation of
                      mean kinetic temperature using an FDA-approved methodology for all
                      CHEMPACK containers to ensure that the product is stored under the
                      correct temperature conditions. Additionally, CDC has retroactively
                      calculated mean kinetic temperature for the same period as our
                      evaluation and identified three CHEMPACK containers that FDA
                      suggests may require additional testing to assure potency. However, it
                      is unclear from CDC’s comments how it accounted for CHEMPACK
                      containers that were missing temperature readings and documentation
                      of temperature-recording device calibrations.
                      In addition, CDC indicated that it plans to take other actions to address
                      our findings and recommendations. For example, CDC will develop a
                      plan to sequester CHEMPACK drugs if their storage temperatures
                      exceed allowable mean kinetic temperature values and seek FDA
                      testing and guidance for these drugs. Further, CDC is evaluating the
                      feasibility of increasing the number of temperature readings taken to
                      increase the confidence in fielded products. CDC is also outlining steps
                      to retrospectively validate the Sensaphone computer system.

                      Finally, CDC stated that our report did not evaluate the overall
                      Strategic National Stockpile program and therefore should not imply
                      that problems exist with Strategic National Stockpile non-CHEMPACK

    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   21
R   E C O        M M E N D A T                       I O N              S


                      assets. Nevertheless, CDC has begun an assessment of how best to
                      initiate an independent review of its quality system and other
                      procedures relative to CHEMPACK containers, and the rest of the
                      Strategic National Stockpile assets, to ensure compliance with FDA
                      requirements.

                      We support CDC’s efforts to address these findings and encourage it to
                      continue making progress in these areas. We made technical changes to
                      the report based on CDC’s comments. For the full text of CDC’s
                      comments, see Appendix D.




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   22
    A P P E N D I X                              A



                    The United States Pharmacopeia Definition of Controlled Room
                                           Temperature

                  A temperature maintained thermostatically that encompasses the
                  usual and customary working environment of 68 degrees Fahrenheit
                  (68°F) to 77°F that results in a mean kinetic temperature calculated
                  to be not more than 77°F and that allows for excursions between 59°F
                  and 86°F that are experienced in pharmacies, hospitals, and
                  warehouses. Provided the mean kinetic temperature remains in the
                  allowed range, transient spikes up to 104°F are permitted as long as
                  they do not exceed 24 hours. Spikes above 104°F may be permitted if
                  the manufacturer so instructs. Articles may be labeled for storage at
                  “controlled room temperature” or at “up to 77°F,” or other wording
                  based on the same mean kinetic temperature. The mean kinetic
                  temperature is a calculated value that may be used as an isothermal
                  storage temperature that simulates the nonisothermal effects of
                  storage temperature variations.
                  An article for which storage at controlled room temperature is
                  directed may, alternatively, be stored and distributed in a cool place,
                  unless otherwise specified in the individual monograph or on the
                  label. 41, 42




                     41 Cool temperatures are those between 59°F and 68°F.
                     42 This definition is reproduced verbatim with the exception that the temperatures in the
                  original version are in Celsius.



OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                               23
    A P P E N D I X                               B



                                  Methodology for Calculating Average Temperature

                  To calculate average temperature of the 967 CHEMPACK containers
                  that had at least three daily temperature readings, we performed the
                  following calculation for each container:

                  1. for each sequential pair of temperature readings, we multiplied
                  the duration of time between readings by the average of the two
                  temperatures; 43
                  2. added all of the values from step one; and
                  3. divided the sum from step two by the total duration of time the
                  container was in storage.

                  For example, if a container was stored at 74 degrees Fahrenheit (°F)
                  at 12 a.m. day 1, 76°F at 8 a.m. day 1, 84°F at 4 p.m. day 1, and 74°F
                  at 12 a.m. day 2, the average temperature using our methodology
                  equals 78°F, i.e., (75°F x 8 hours) + (80° x 8 hours) + (79°F x 8 hours)
                  = 1872 / 24 hours = 78°F.




                    43 Not all containers had the same number of temperature readings because
                  Sensaphones take temperature readings more frequently than every 8 hours when a
                  container’s storage temperature falls outside of the CDC-established storage range.



OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                               24
    A P P E N D I X                               C



                         Cumulative Time CHEMPACK Containers Were Maintained
                                             Above 77°F

                  The table below shows the cumulative time that all 967 selected
                  containers that had at least three daily Sensaphone readings, in
                  accordance with Centers for Disease Control and Prevention
                  procedures, for the 1-year period we reviewed were maintained above
                  the storage range of 68 degrees Fahrenheit (68°F) to 77°F for
                  CHEMPACK drugs, and the corresponding number and percentage of
                  containers.



                     CHEMPACK Containers Maintained Above the Storage
                     Temperature Range
                    Cumulative Time Above 77°F                                        Number of                Percentage of Selected
                                                                                      Containers                 Containers (n=967)**

                    8 hours to 1 day                                                               52                            5%
                    Over 1 day to 1 week                                                         114                            12%
                    Over 1 week to 1 month*                                                        78                            8%
                    Over 1 month to 3 months                                                       70                            7%
                    Over 3 months to 6 months                                                      25                            3%
                    Over 6 months                                                                  12                            1%

                       Total                                                                     351                             36%
                  * We define a month as a total of 30 days.
                  ** Percentages are rounded to the closest whole number.
                  Source: Office of Inspector General analysis of Sensaphone temperature readings of CHEMPACK
                  containers.




OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                                        25
   A P P E N D I X ~ D

                                          AGENCY COMMENTS




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   26
A   P   P E N D       I X ~          D




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   27
A   P   P E N D       I X ~          D




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   28
A   P   P E N D       I X ~          D




    OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                                   29
A   P PEN             0     x       D




           Page 5- Daniel R. Levinson


              • 	 DSNS 110] Equipment Services and Preventive Maintenance Standard Operating
                  Procedures (SOP) outlines the Sensaphone and equipment preventive maintenance
                  progrmn which includes calibration and documentation through service records. This
                  SOP is currcntly being revised to require the review of calibration records by the SN S
                  Quality Control Unit.

              • 	 Based on dialogue with FDA, CDC will determine if any further modifications to Project
                  Area MOAs related to temperature controls are needed. CDC will modify SOPs and
                  adjust monitoring systems to ensure CHEMPACK is compliant with any new
                  temperature monitoring requirements.

           We appreciate your consideration of the comments contained in this memo as you develop the
           final report. We are happy to discuss any of these comments with you. Please direct any
           questions regarding these comments to Mr. Shaun Ratliff by telephone at (404) 639-2809, or by
           e-mail at iggao@cdc.gov.




                                                                     /S/
                                                        Thomas R. Frieden, M.D.,M.P.H.




    OEI·04·08·00040       CDC's CHEMPACK    PROJECT:   NERVE AGENT ANTIDOTE STORAGE
                                                                                                            30
      A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Dwayne F. Grant,
                  Regional Inspector General for Evaluation and Inspections in the
                  Atlanta regional office. Mary-Elizabeth Harmon served as the team
                  leader for this study, and Gerius Patterson served as the Lead Analyst.
                  Other principal Office of Evaluation and Inspections staff from the
                  Atlanta regional office who contributed to the report include Peggy
                  Daniel, Jaime Durley, and Sarah Glowa-Kollisch; central office staff
                  who contributed include Talisha Searcy.




OEI-04-08-00040   C D C ’ S C H E M PA C K P R O J E C T : N E R V E A G E N T A N T I D O T E S T O R A G E
                                                                                                               31
